SBA'S EFFORTS TO IMPROVE THE QUALITY 

 OF ACQUISITION DATA IN THE FEDERAL 

      PROCUREMENT DATA SYSTEM 




              Report Number: 10-08 

          Date Issued: February 26,2010 

             u.s. Small Business Administration
             Office of Inspector General                      Memorandum
     To: 	   Darryl K. Hairston                                                         Date:   February 26,2010
             Associate Administrator
             Office of Management and Administration
             lsi Original Signed
  From: 	    Debra S. Ritt 

             Assistant Inspector General for Auditing 


Subject: 	   Audit of the SBA's Efforts to Improve the Quality of Acquisition Data in the Federal
             Procurement Data System, Report No. 10-08

             This report presents the results of our audit of the quality of SBA' s acquisition
             data in the Federal Procurement Data System (FPDS). Based on data quality
             concerns raised by the Government Accountability Office (GAO), in 2007 the
             Office of Management and Budget (OMB) issued a directive requiring Federal
             agencies to annually certify to the accuracy of procurement data reported in FPDS.
             Data in FPDS must be accurate because it is used to report on Government
             contracting actions, procurement trends, achievement of small business goals, and
             to report contract activity under the American Reinvestment and Recovery Act
             (Recovery Act). In 2008, OMB also required that agencies annually implement
             data quality plans. Beginning in fiscal year (FY) 2005, OMB required Federal
             agencies to convert to a contract writing system that directly interfaces with
             FPDS. 1 SBA met this requirement in 2009 when it converted from Comprizon to
             PRIZM.

             The objectives of the audit were to determine whether SBA had (1) taken adequate
             steps to ensure the accuracy of its FY 2008 acquisition data, and (2) developed a
             data quality plan to effectively address any data weaknesses. Additionally, at
             management's request, we determined whether the quality ofFPDS data improved
             with the conversion to a new contract writing system in FY 2009. To achieve the
             audit objectives, we examined SBA's process for ensuring the accuracy of its
             acquisition data; reviewed relevant policies, procedures, and regulations; reviewed
             a copy of SBA' s FY 2008 FPDS Data Quality Plan and SBA' s FY 2008
             certification to OMB; and interviewed personnel in SBA's Office of Business
             Operations (OBO). We also analyzed a random sample of SBA's contract


             10MB Memorandum, Timely and Accurate Procurement Data, August 25 , 2004.
                                                                                                                       2


actions - 36 in FY 2008 and 35 in FY 2009 2 to determine whether the data in
FPDS matched information contained in SBA's contract files. In assessing data
accuracy, we focused our review on 18 of the 46 key data elements identified by
OMB, that were either legislatively mandated 3 or which described the nature of
the contract action. The data elements selected for review and our sampling
methodology are contained in Appendix I. We conducted our audit between May
2009 and December 2009 in accordance with Government Auditing Standards
prescribed by the Comptroller General of the United States.

We found that SBA certified to the accuracy of its FY 2008 contracting data,
although 92 percent of the contract actions in our sample contained one or more
inaccurate or incomplete data elements in FPDS. While SBA had developed a
data quality plan for FY 2008, it did not fully implement the plan, which
contributed to the errors identified. Further, due to the volume of errors identified
in FPDS, it appears that contracting personnel did not review FPDS data inputs to
ensure they reflected accurate information, as required by the Federal Acquisition
Regulations (FAR). Finally, while the accuracy of some data elements improved
in FY 2009, overall there was a higher rate of error in the FY 2009 data.
Approximately 97 percent of the contract actions in our sample contained one or
more inaccurate or incomplete data elements, indicating again that SBA
contracting personnel were not properly reviewing data entries.

We recommended that the Associate Administrator for Management and
Administration identify steps that will be taken to ensure that contracting data is
reviewed for accuracy and completeness, conduct an independent review to
determine whether the Data Quality Plan has been fully implemented, and hold
OBO personnel accountable for the accuracy of FPDS data. Management
concurred with the report findings and recommendations and agreed to take
appropriate action.

BACKGROUND
FAR requires Federal agencies to enter information on all of their reportable
contract actions 4 into FPDS 5 and to certify annually to its accuracy.6 Congress,
Federal agencies, and the public rely on FPDS for a broad range of data on
contracting actions and spending. This information is also used to assess the


2 The sample included contract actions that occurred between October 2008 and March 2009 . 

3 Public Law 109-282, Federal Funding and Transparency Act 0/2006, September 26, 2006 . 

4 Reportable Contract Actions are defIned by FAR Part 4.601 as any action that results in the purchase, rent, or lease of 

  supplies or equipment, services or construction using appropriated dollars over the micro purchase threshold; or
  modifIcations to these actions regardless of value.
5 FAR Part 4.602(a) .
6 FAR Part 4.604(c) .
                                                                                                     3


extent to which Federal agencies are meeting their small business goals and to
report to Recovery.gov on contracting activity financed by the Recovery Act.

In September 2005, the GAO reported a lack of confidence in the ability of FPDS
to provide timely and accurate data and recommended that agencies verify the
accuracy and completeness of their data in FPDS. 7 Based on concerns raised by
GAO and the need to ensure the public has accurate data on Federal procurements,
beginning in 2007, OMB directed procuring agencies to take steps to improve the
quality of data reported to FPDS. 8 Additionally in FY 2008, OMB required
Federal agencies to submit Data Quality Plans, including actions that would be
taken to validate contract actions entered into FPDS. In complying with this
requirement, agencies were to determine the accuracy rates of 46 key data
elements prescribed by OMB based on either a review of a statistical sample of
contract actions or an alternative methodology. The FY 2008 Data Quality Plan
was due to OMB by July 15,2008. Finally, by January 5, 2009, all agencies were
required to certify that all reportable contract actions awarded during FY 2008
were entered into FPDS as fully and accurately as possible.

OBO is responsible for ensuring and certifying the accuracy and completeness of
all SBA procurement information contained in FPDS. During FY 2008, SBA used
Comprizon as its primary contract writing system, which did not have a direct
interface with FPDS. Therefore, SBA manually entered the FY 2008 contract
actions into FPDS. In FY 2009, the Agency converted to PRISM, which allowed
contracting personnel to electronically transmit to FPDS procurement data for
select fields. OBO contracting personnel manually enters information for all other
fields.

SBA certified that all 855 contract actions for FY 2008, valued at $72 million,
were entered into FPDS as fully and accurately as possible. At the time of our
audit fieldwork, the Agency had not certified to the accuracy of its FY 2009 data.
Since issuance of the draft report, SBA certified on January 5, 2010, that
99 percent of all contract actions for FY 2009, valued at $99 million, was entered
into FPDS as fully and accurately as possible.




7 GAO-05-960R, Improvements Needed to the FPDS-Next Generation, September 27, 2005 .
80MB Memoranda, Federal Procurement Data Verification and Validation, March 9, 2007, and Improving
 Acquisition Data Quality-FY 2008 FPDS Data, May 9, 2008.
                                                                                                                          4


RESULTS

SBA Did Not Take Sufficient Action to Ensure the Accuracy of its FY 2008
FPDS Data

SBA's process for ensuring the accuracy ofFY 2008 FPDS data was not adequate.
According to OBO contracting personnel, after contract data was entered into
FPDS, they printed a copy of the FPDS information and compared it to
information in the contract file. If any discrepancies were identified between the
two sets of information, corrections should have been made before finalizing the
data in FPDS. While contract files contained a copy of the FPDS printout, our
review of 36 sampled contract actions reported in FPDS disclosed that 33, or
92 percent, contained one or more inaccurate entries 9 and/or were missing data
elements. Of the 33 contract actions that had problems, 32 involved inaccurate
data, and 11 had incomplete data elements. Some of the more prevalent data
errors included:

    • 	 13 contract actions that had incorrect Data Universal Numbering System
        (DUNS) numbers-the contractor's unique identifier used for data
        retrieval. This type of error could result in an over- or understatement of
        contractor activity.

    • 	 11 that incorrectly reported the size of the business, the majority of which
          consisted of businesses being reported in FPDS as small, but the contract
          file reflected that they were other than small. The accuracy of this data
          element is important for SBA to properly receive credit for meeting their
          small business goals.

    • 	 6 that did not have North American Industrial Classification System
        (NAICS) codes that matched those in the contract files. The NAICS code
        is important because it provides the standard for determining whether a
        business is small, and eligible to receive small business contracts in a given
        industry.

    • 	 11 contract actions did not contain an accurate award type, which restricts
         the data fields for data entry. For example, because a Delivery Order was
         incorrectly entered as a Purchase Order, pertinent data fields for the
         Delivery Order were not accessible in the drop-down menu. This type of


9 Forthe purposes of our report, inaccurate means the FPDS report and the contract file for the contract action did not
 contain matching information or the information was missing from the contract file for 156 of the 648 data elements
 reviewed.
                                                                                       5


       error also skews the procurement statistics for the Agency and the Federal
       government that is reported in USAspending.gov.

   • 	 18 did not contain correct zip codes for the place of contract performance,
       causing some contracts to be reported as performed in the wrong
       Congressional district.

Additionally, 11 contract actions (10 of which also had accuracy issues), had at
least 1 data element that was blank in FPDS, even though it was a required
element for the contract action based on the award type. For example, incomplete
fields included the type of contract, description of requirements, and principal
NAICS code, among others.

Based on our sample results, we estimate that at least 681 of the 850 contract
actions reported in FY 2008 had inaccurate or incomplete information. Our
statistical projections are detailed in Appendix I, and a further description of the
data errors by element is provided in Appendix II.

SBA Did Not Fully Implement Its Data Quality Plan

In preparation for its FY 2008 certification, the Agency established and submitted
a Data Quality Plan to OMB that detailed steps to ensure the accuracy and
completeness of information being reported in FPDS. Specifically, the Plan called
for:
     • 	 Verifying and validating FPDS information to ensure the data entered was
         accurate and complete before awarding the contract.

   • 	 Verifying that contract obligations matched the information entered into
       FPDS.

   • 	 Verifying and validating FPDS data through a monthly statistical sampling
       of data entries.

   • 	 Reviewing obligations to ensure that all contract actions were entered into
       FPDS.

   • 	 Conducting an independent review, consisting of a statistically valid 

       comparison of FPDS data and contract files. 


Although the plan included steps to review and verify the completeness and
accuracy of FPDS data, the Agency only compared contract actions in Comprizon
to those in FPDS to identify and complete those that had not been entered into
                                                                                                                        6


FPDS. While these reviews ensured that all contract actions were entered into
FPDS, the Agency did not conduct additional tests as specified in the Plan, to
ensure the data entered was accurate. The large volume of errors noted in our
review would seem to indicate that contracting personnel were not reviewing
FPDS inputs to ensure they accurately reflected contract actions. This occurred
because contracting personnel were not held accountable for ensuring the accuracy
of FPDS data. More importantly, the Agency did not conduct an independent
review of a statistical sample of contract actions to validate the accuracy of FPDS
data.
According to OBO management, workload demands and a lack of resources
hindered its ability to fully implement the Data Quality Plan. By not fully
implementing the plan, the Agency inappropriately certified that its 855 contract
actions were accurate.

The Percentage of Contract Actions with Data Quality Issues Increased in
FY 2009 with the Conversion to a New Contract Writing System

Our review of 35 statistically sampled contract actions for FY 2009 determined
that 34, or 97 percent, of the actions contained inaccurate 10 and/or incomplete
data.
Of the 34 actions, 30 contained 1 or more data elements that did not match data in
contract files, and 12 were incomplete. Although more contract actions had data
quality issues in FY 2009 than in FY 2008, the Agency's data entry improved for
four of the five data elements discussed previously. For example:

       • 	 8 had incorrect DUNS numbers, compared to 13 observed for FY 2008.

       • 	 8 incorrectly reported the size of the business, compared to 11 that were
           identified for FY 2008.

       • 	 8 did not have NAICS codes that corresponded to that reported in the 

           contract files, compared to the 6 observed for FY 2008. 


       • 	 10 did not have matching award types, compared to 11 that were observed
           for FY 2008.

       • 	 15 did not contain correct zip codes for the place of contract performance,
           compared to 18 that were observed for FY 2008.


10   The FPDS report and the contract file for the contract action did not contain matching information or the information
     was missing from the contract file for 141 of the 630 data elements reviewed.
                                                                                                           7


Further, similar to what we observed with the FY 2008 data, 12 of the FY 2009
contract actions contained one or more data elements that were blank in FPDS.
The NAICS code was the data element that was most frequently left blank. Based
on our analysis of the sampled contract actions, we estimate that at least 266 of the
303 contract actions entered into FPDS by the SBA contained at least 1 error for
the 18 data elements we reviewed. Complete results of our contract action
analysis are detailed in Appendix I.

These results indicate that SBA' s contracting personnel continue to insufficiently
review the data entered into FPDS to ensure the data is correct and that all
required fields are completed. Since SBA contract actions in FPDS contain
information not matching the data in the contract files, inaccurate information is
being made available to Congress and the public on SBA contracting activities,
including potential Recovery Act actions. Also, SBA's Goaling Report may
contain inaccurate information concerning the extent to which the Agency met its
small business goals.

In October 2009, OMB issued new guidance 11 on improving FPDS data quality for
FY s 2009 and 2010 and eliminated the previous requirement to submit separate
data quality plans and certification reports. The new guidance requires agencies to
submit a single, annual Data Quality Report that includes the agency's
certification of the completeness and accuracy of its FPDS data for the previous
fiscal years, a description of activities to assure data input accuracy, and a
summary of its policies and procedures for measuring and reporting data accuracy.
Shortly after OMB issued its guidance, SBA issued an information notice 12
regarding the certification of FPDS data and provided guidance to SBA
contracting personnel on ensuring data quality. However, this notice does not
contain sufficient detail regarding the steps that will be taken to ensure data is
reviewed for accuracy and completeness. This level of detail will be needed to
meet OMB's new guidance for improving and validating the accuracy ofFPDS
data.




110MB        Memorandum, Improving Acquisition Data Quality for Fiscal Years 2009 and 2010, October 7, 2009 .
12 	   SBA Information Notice, Ensuring Accurate Procurement Data Reporting to the FPDS - Next Generation and
       Federal Assistance Award Database, October 19, 2009 .
                                                                                     8


RECOMMENDATIONS

We recommend that the Associate Administrator for Management and
Administration to:

1. 	 Either update the FY 2008 Data Quality Plan or revise the information notice
     to include explicit steps that will be taken to ensure data is reviewed for
     accuracy and completeness.

2. 	 Conduct an independent review to ensure that the Data Quality Plan or
     information notice requirements have been fully implemented.

3. 	 Ensure that OBO contracting personnel are held accountable for the accuracy
     of FPDS data.



AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

On January 7,2010, we provided a draft of the report to SBA's Office of
Management and Administration for comment. On February 18, 2010, the
Associate Administrator for Management and Administration provided written
comments, which are contained in their entirety in Appendix III. Management
agreed with our findings and concurred with all three recommendations. The
Agency's comments and our evaluation of them are summarized below.

Management Comments

Recommendation 1

The Associate Administrator, Office of Management and Administration agreed
with the recommendation, and stated that he will revise and reissue the Agency
Data Quality Plan to further delineate specific steps that must be taken to ensure
data is properly reviewed for accuracy and completeness. The Associate
Administrator also stated that he will provide training to the contracting
specialists/officers to reinforce this effort.

GIG Response

We consider management's comments to be responsive to the recommendation.
                                                                                       9


Recommendation 2

The Associate Administrator, Office of Management and Administration agreed
with the recommendation, and stated that in September 2009 the OBO contracted
with LS3 to conduct an independent review of the SBA's FPDS data. He noted
that LS3 's findings confirmed our audit report conclusion that the FY 2009 data is
more accurate than prior year data. The Associate Administrator also stated that
the Office of Management and Administration will make necessary adjustments to
the Agency's Data Quality Plan to ensure continued improvement of FPDS data
quality. He also stated that LS3 will conduct semi-annual data quality reviews to
ensure on-going compliance with applicable guidance and to ensure the accuracy
and completeness of the data.

GIG Response

We consider management's comments to be responsive to the recommendation.

Recommendation 3

The Associate Administrator, Office of Management and Administration agreed
with the recommendation, and stated that the annual Performance Business
Commitment Plans for contracting specialists/officers will include a critical
performance element holding them accountable for the accuracy and completeness
of FPDS data.

GIG Response

We consider management's comments to be responsive to the recommendation.


ACTIONS REQUIRED

Please provide your management decision for each recommendation on the
attached SBA Forms 1824, Recommendation Action Sheet, within 30 days from
the date of this report. Your decision should identify the specific action( s) taken
or planned for each recommendation and the target date(s) for completion.

We appreciate the courtesies and cooperation of the Small Business
Administration during this review. If you have any questions concerning this
report, please call me at (202) 205_[FOIAex2]or Riccardo R. Buglisi, Director, Business
Development Programs Group, at (202) 205-[FOIAex2]
                                                                                                                    10




APPENDIX I. ATTRIBUTE SAMPLING METHODOLOGY AND
PROJECTIONS
For FY 2008, we reviewed a random sample of 36 of 85013 contract actions made
during the fiscal year to estimate a FY 2008 FPDS error rate. To estimate a FY
2009 FPDS error rate, we reviewed a random sample of 35 of 303 contract actions
made. For each contract action, we reviewed 18 of 46 key data elements identified
by OMB for assessing the accuracy ofFPDS data. We compared the information
in FPDS to the information in SBA's contract file to determine the error rate for
each data element. If the information for anyone of the 18 data elements did not
match, we considered the overall contract action to be an error. FPDS data
elements that required information, but were left blank, were also considered to be
errors. In addition, if the Agency was unable to provide the file for a contract
action in our sample, we counted the contract action as an error.

In statistical sampling, the estimate of attributes in the population universe has a
measurable precision or sampling error. The precision is a measure of the
expected difference between the value found in the sample and the value of the
same characteristics that would have been found if a 100-percent review had been
completed using the same techniques.

We calculated the population point estimates and the related lower and upper
limits for the selected attributes, using the Defense Contract Audit Agency's "EZ
Quant" software program, at a 90-percent confidence level. Projecting our sample
results to the universe of 850 SBA contract actions, we estimated SBA's FY 2008
FPDS error rate to be at least 80 percent. Our calculations for the FY 2008 error
rates are shown in Table 1 and 2. Projecting our sample results to the universe of
303 SBA contract actions, we estimated SBA's FY 2009 FPDS error rate to be
approximately 88 percent. Our calculations for the FY 2009 rates are shown in
Tables 3 and 4.




13   The sample number is based on the FPDS data file as of May 3, 2009, which was the date the oro queried FPDS to
     identify the universe of contract actions for FY 2008. rn January 2009, SBA's certification included 855 contract
     actions for FY 2008 . The difference between the universe from which the oro sampled and the number of contract
     actions that SBA certified to is attributed to the timing difference.
                                                                                                              11 





        Table 1: OIG Calculations of SBA's FY 2008 FPDS Data Error Projections for Contract Actions
                                                       Projected Number of Errors in Universe of 850 Contract
                                                                              Actions
                      Incomplete or Inaccurate Data  Lower Limit at 90-Percent     Upper Limit at 90-Percent
                         Elements in Sample of 36           Confidence                    Confidence
Number of Contract
Actions with Errors                      33                                 681                         830



          Table 2: OIG Calculations of SBA's FY 2008 FPDS Data Error Projections by Data Element

                               Number of Incomplete or    Projected Number of Errors in Universe of 850 Contract Actions
                                   Inaccurate Data         Lower Limit at 90-Percent       Upper Limit at 90-Percent
       Data Elements           Elements in Sample of 36           Confidence                       Confidence
       Procurement
 1     Identifier                         3                           20                               168
       Referenced
       Indefinite Delivery
 2     Vehicle                            11                          156                              384
 3     Date Signed                        11                          156                              384
 4     Completion Date                    10                          137                              359
 5     Last Date to Order                  5                          49                               228
 6     Action Obligation                  6                           65                               255
       Base and All Options
 7     Value                              6                           65                               255
       Funding Agency
 8     Identifier                         3                           20                               168
       Fees Paid for Use of
 9     illV                               7                           82                               282
10     Type of Contract                   8                           100                              308
       Description of
11     Requirement                        5                           49                               228
       Principal NAICS
12     Code                               8                           100                              308
13     DUNS                               13                          196                              434
       Place of
       Performance Zip
14     Code                               18                          303                              547
15     Extent Competed                    15                          238                              354
16     Type of Set Aside                  5                           49                               228
       Contracting Officer's
       Business Size
17     Selection                          11                          156                              384


18     illV/Award Type                    11                          156                              384
                                                                                                           12 




     Table 3: OIG Calculations of SBA's FY 2009 FPDS Data Error Projections for Contract Actions
                                                 Projected Number of Errors in Universe of 303 Contract
                                                                       Actions
                Incomplete or Inaccurate Data    Lower Limit at 90­          Upper Limit at 90-Percent
                   Elements in Sample of 35      Percent Confidence                 Confidence
  Number of
Contract Actions
  with Errors                      34                           266                            303




           Table 4: OIG Calculations of SBA's FY 2009 FPDS Data Error Rates by Data Element
                                                            Projected Number of Errors in Universe of 303 Contract
                                Number of Incomplete or                            Actions
                              Inaccurate Data Elements in   Lower Limit at 90-Percent    Upper Limit at 90-Percent
      Data Elements                  Sample of35                    Confidence                  Confidence
      Procurement
 1    Identifier                          4                            13                            72
      Referenced Indefinite
2     Delivery Vehicle                    8                            38                            111
3     Date Signed                         9                            45                            121
4     Completion Date                     5                            18                            82
5     Last Date to Order                  9                            45                            121
6     Action Obligation                   4                            13                             72
      Base and All Options
 7    Value                                9                           45                            121
      Funding Agency
8     Identifier                          4                            13                            72
      Fees Paid for Use of
9     illV                                4                            13                             72
10    Type of Contract                    7                            32                            102
      Description of
11    Requirement                          5                           18                            82
      Principal NAICS
12    Code                                15                           89                            174
13    DUNS                                8                            38                            111
      Place of Performance
14    Zip Code                            15                           89                            174
15    Extent Competed                     11                           58                            139
16    Type of Set Aside                   6                            25                             92
      Contracting Officer's
      Business Size
17    Selection                           8                            38                            111
18    illVlAward Type                     10                           51                            130
                                                                                                                                                                                            13




                  APPENDIX II. RESULTS OF DATA ANALYSIS REVIEW
                Table 1: OIG Results from Comparison of FPDS Data to SBA Contract Files for FY 2008
1= Inaccurate                      ~          OJ
                                                   w     c
                                                                                       OJ
                                                                                       en                                                             c-            "0         OJ             en
                                                                                                                                                                                              en
                                   OJ              1:'   a               >­
                                                                         u         :::l            OJ    1:5              CfJ                                       2         "0              OJ             OJ
B= Blank                                                                                                                                                                      ·iii
(incomplete)        C              .'"
                                   Qj    "0   "'
                                              0    0
                                                   .8
                                                         ~
                                                         .2'
                                                               =
                                                               «co
                                                                   OJ
                                                                   ::J
                                                                         C
                                                                         OJ
                                                                                       I.....
                                                                                       a
                                                                                                  12
                                                                                                  .r::   C
                                                                                                          l"
                                                                                                               Dc         0
                                                                                                                          «
                                                                                                                                                      N
                                                                                                                                                      OJ
                                                                                                                                                      u
                                                                                                                                                                    OJ
                                                                                                                                                                    c-
                                                                                                                                                                    E
                                                                                                                                                                              «              .!: c
                                                                                                                                                                                              en a
                                                                                                                                                                                         O)::::J:;:::;
                                                                                                                                                                                                             c­
                                                                                                                                                                                                             >­
                                                                                                                                                                                                             I­
                    OJ         a]o       OJ   c
                                                         :c              «Cl       -            OJ OJ     a    c    OJ    Z                                                   Q)
                                                                                                                                                                                         :§~~
                                              a                                                                                                       c                                                      1:'
                                         c
                                                                                   ~~;.                                                                             a
                                                                                                               ~~
                    E    ~     u OJ                2           "0>                                       0                                                                    CfJ
                               ffi~~
                                         Cl
                                              ~          0     c en
                                                                                                         a                coc­               -a       co            0
                                                                                                                                                                              a                              co
                                                                                                                                                      E                                  ~ -a; ~
                                                                           ClW
                    §~
                                                   co
                                                                                    03 03
                                         Ui   c.                                                                                                   a                cOJ                                      ~
                                                   0     c     co c      . !:~     0.
                                                                                                                          ·u          CfJ
                               ~~~                                                     ~~1;
                                                         a                                                     U                                 Q)        Q)
                                         2    E                ffiE      "O~
                                                                         c     c                         OJ
                                                                                                               en
                                                                                                                    ::J          Q)
                                                                                                                                      z          U't:"O                        OJ        c .~
                    e                    co   a    1il   :0    co c-     ::J OJ
                                                                                                         c­         CT     c"O
                                                                                                                          ·c a        :::l   ~             a        ;(         c­                  Q)
                                                                                                                                                                                         a tI:: .to!         >
                               ~-'=~
                         ffi                       co                              OJ_ OJ                >­    OJ   OJ                                Q)                       >­
Contract Action
                    o..~                 0    0    --'   «     CJO       LL~       LLOO                  I-    00::       0..0        0      0..0..0                W         I-         OOCfJ               9

SBAHQ08M0059
SBAHQ08F0231                             I    I          I     I                   I                                                  I                         I
SBAHQ08AOO06                             I               I     I                                                                      I                         I
SBAHQ08F0261                   B                                                                         B     B                             I                                       I                   I
SBAHQ08C0037                             I                                                                                                   I                            I          I
SBAHQ08F0215         I         I         I    I    I     I     I         I         I                     I     I          I           I      I                  I         I          I                   I
SBAHQ08F0098                             I                                                                                B           I                         I
SBAHQ07A0033
Mod 11                                   I                                                                                                                      I
SBAHQ08F0050                                  I                                    I                                                  I      I
SBAHQ08M0463                                                                                                                                 I                            I
SBAHQ08F0600
SBAHQ08D0015                   B                   I                                                     I                                                      I                    I
SBAHQ08F0226                   B         I                                                                                                                                                               I
SBAHQ08F0026                                                                                                                          I
SBAHQ08F0099                                                                                             I                                                                           I
SBAHQ08M0147                                                                                                                                 I                  I
SBAHQ08F0027                   B              I          I     I                                                                      I      I                  I                    I                   I
SBAHQ08M0200                                                                                                                                 I
SBAHQ08M0285                                                                                                                                 I
SBAHQ04F0228
Mod 13               I         I         I    I    I     I     I         I         I                     I     I          I           I      I                  I         I          I                   I
SBAHQ08F0033                                  I                                    I                                                  I
SBAHQ08F0233                                                                       I
SBAHQ09COO01                                                                                                              I                  I                                                           I
SBAHQ08M0061                                  I                                                          I                B                  I                  I
SBAHQ08M0065                                                                                                                                 I                  I
SBAHQ08M0372                                                                                                   B
SBAHQ08M0453                             I
SBAHQ08F0107                   B                                                                                                             I                  I                                        I
SBAHQ08F0144                   B                                                                                                      I      I                  I                    I                   I
SBAHQ08M0392                                  I                                                                           I
SBAHQ08F0133                   B              I                                                                                       I      I                                       I                   I
SBAHQ08F0201                   B                                                                                          I                  I                  I                                        I
SBAHQ08F0010                                                                                                                          I
SBAHQ05C0026
Mod 1                I         I         I    I    I     I     I         I         I                     I     I          I           I      I                  I         I          I                   I
SBAHQ08A0021
SBAHQ08A0015                             I         I                                                     I                                                                           I
                                                                                                                                                                                          14 




        Table 2: OIG Results from Comparison of FPDS Data to SBA Contract Files for FY 2009
1= Inaccurate                                           Ol                 c                                                                                  c.
                                       Ol                                  a                   >­
                                                                                               u                      1:5              (fJ                                                                             Ol
                                                                                                                                                                                                                       c.
B= Blank                                                                                                                                                      N
(incomplete)      C
                  Ol             "0
                                 ~Ol>
                                      u
                                      :.cOl   "0
                                               Ol       "'
                                                        0
                                                        C
                                                        a
                                                             .8
                                                                           ~
                                                                           .2'
                                                                           ::c
                                                                                 _
                                                                                 «co
                                                                                     Ol
                                                                                     ::J       C
                                                                                               Ol
                                                                                               Cl
                                                                                               «
                                                                                                         a
                                                                                                         :~:;>
                                                                                                                      ~
                                                                                                                      ca    Dc
                                                                                                                            C
                                                                                                                               «ZOl
                                                                                                                                       0
                                                                                                                                                              Ol
                                                                                                                                                              U
                                                                                                                                                              C          "0
                                                                                                                                                                               Q)
                                                                                                                                                                               (fJ
                                                                                                                                                                                           Cl
                                                                                                                                                                                           C
                                                                                                                                                                                                       Ol
                                                                                                                                                                                                       N
                                                                                                                                                                                                       Ui
                                                                                                                                                                                                                       >­
                                                                                                                                                                                                                      I­
                                                                                                                                                                                                                      1:'
                                                                                                                            ~~
                  E     ~                      C                                 "0>                                  0
                                 ffi~ ~
                                               Cl
                                                        ~
                                                             2             0     C en           ClW
                                                                                                         .- 0
                                                                                                         co-
                                                                                                                      o         coc.                     -a   co
                                                                                                                                                              E     ~Q)
                                                                                                                                                                          Ol              :;:::;
                                                                                                                                                                                           U yl
                                                                                                                                                                                                       en c
                                                                                                                                                                                                       en a            co
                                                                                                                                                                                                                       ;;:
                  §~
                                                             co                                          D.._
                                              Ui        C.   o~   ~        C     co C          .!:~
                                                                                                                               ·u                 (fJ         a                0           C'O I....   Q):;:::;

                                 ~~~                                                                     en a                                                       C                                  c U
                                                                                                                                                                                                                      ~
                                                                                                                            u                            Q)    Q)        C.                I.... Q)
                                                                  Ol       a     ffiE          "0 ~                   Ol         ::J         Q)                                Ol    Ol
                  e ffi          Ol"O Ol
                                              2
                                              co
                                                        E
                                                        a    en "0
                                                             co ~          :0    co C.
                                                                                                C C
                                                                                                ::J Ol
                                                                                                         Ol Ol
                                                                                                         Ol en
                                                                                                                      c.
                                                                                                                      >­
                                                                                                                            en
                                                                                                                            Ol
                                                                                                                                 CT
                                                                                                                                 Ol
                                                                                                                                       c"O
                                                                                                                                       ·c a
                                                                                                                                                  Z
                                                                                                                                                  :::l
                                                                                                                                                         U't: "0
                                                                                                                                                         ~ Q) a
                                                                                                                                                                    Ol
                                                                                                                                                                    ;( a
                                                                                                                                                                         E
                                                                                                                                                                       >-en
                                                                                                                                                                               c..~       § ~.~ ~
Contract Action
                  D..:t::l       e::-'=o      0         0    --,0          «     (lJ0          u.:t::l   u.:::l       I-    oe::       D..O       0      D..D..O    wo 1-«                00(lJ(fJ                    9
SBAHQ09M0031                 B                                B                                                                                                                  I                                I
SBAHQ08F0282
                                                                                 I
Mod 5
SBAHQ09M0038                                                                                                      B                      B                I
SBAHQ09M0065                                                                                                                                                         I
SBAHQ09M0073                                                                                                                             B
SBAHQ09D0017                                  I               B                                                                                                                              I                    I
SBAHQ09DOO08        I        I                I     I         I        I         I         I              I       I         I            I        I       I          I           I           I                    I
GS35F0089NSB
AHQ03F0215SB
                                                                                                                                                  I       I
AHQ03F0215
Mod 13
SBAHQ08F0148
                                              I                                  I
Mod 1
SBAHQ09M0066                                                                                                                             I
SBAHQ09F0047                                                                                                                             I
SBAHQ09FOO77                                                                                                                             I
SBAHQ09M0099                                                                                                                                              I          I           I           I
SBAHQ09M0045                                                                                                                                              I
SBAHQ07F0281
                                              I
Mod 2
SBAHQ07F0187
                                                                                                                                                          I
TOO04
SBAHQ09M0082                                                                                                                             B
SBAHQ09M0067
                                                                                                                                                                     I
Mod 1
SBAHQ09M0085                                                                                                                                              I
SBAHQ09C0019                                  I                                                                                                           I
SBAHQ09F0069                                                                                                                             I        I       I
SBAHQ09F0029                                                  B                                                                                   I                  I                                            I
SBAHQ07COO08
                                                                                 I                                                                        I
Mod 7
SBAHQ09M0135                                                                                                                                              I
SBAHQ09M0081                                                                                                                             B                                                   I
SBAHQ09FOO01                 B                I                                                                   I         B            B                I          I                                            I
SBAHQ08M0475
                    I        I                I     I         I        I         I         I              I       I         I            I        I       I          I           I           I                    I
Mod 2
SBAHQ09M0101                                                                                                                             B
SBAHQ04COO02
                                                              B                  I                                I                                                  I                                            I
Mod 32
SBAHQ06M0328
                             B                                I                  I                                                                                                           I                    I
Mod 6
SBAHQ09F0044        I        I                I     I         I        I         I         I              I       I         I            I        I       I          I           I           I                    I
SBAHQ09F0021                 I                      I                                                                                             I                  I
SBAHQ08F0081
                    I        I                I     I         I        I         I         I              I       I         I            I        I       I          I           I           I                    I
Mod 2
SBAHQ09M0083                                                                                                                             B
SBAHQ09M0127
                                                                                        15


      APPENDIX III. AGENCY COMMENTS 





                            U.S. SMALL BUSINESS ADMINISTRATION 

                                   WASHINGTON, D.C. 20416 





      DATE: 	               February 18,2010


TO:                    Debra S. Ritt
                             Assistant Inspector General for Auditing

FROM:                  Darryl K. Hairston
                              Associate Administrator
                              Office of Management and Administration

SUBJECT: 	      Draft Report on the Audit of SBA's Effort's to Improve the Quality of
                Acquisition Data in the Federal Procurement Data System, Project No.
                99010

Thank you for providing the opportunity to comment on this draft report.

The Small Business Administration (SBA) is committed to improving the quality of
acquisition data in the Federal Procurement Data System (FPDS) and we appreciate your
input and recommendations on the issues provided in your report. We are and will
continue to take additional steps in our efforts to improve FPDS data quality.

Following are the Agency's responses to the IG's recommendations:

Recommendation # 1 - Either update the FY 2008 Data Quality Plan or revise the
information notice to include explicit steps that will be taken to ensure data is
reviewed for accuracy and completeness.

We agree with this recommendation and will revise and reissue the Agency Data Quality
Plan to further delineate specific steps that must be taken to ensure data is properly
reviewed for accuracy and completeness. In addition, we will provide training to the
contracting specialists/officers to reinforce this effort.

Recommendation # 2 - Conduct an independent review to ensure that the Data
Quality Plan or information notice requirements have been fully implemented.

In September, 2009, the Office of Business Operations (OBO) contracted with LS3 to
conduct an independent review of SBA FPDS data. Through this contract, LS3 provided
                                                                                       16


personnel with prior experience in federal acquisition and contract data analysis. These
individuals were also provided training by SBA personnel specific to its expectations
under the contract.

We are pleased to note that their findings thus far confirm the conclusion in your report
that the FY 2009 data is more accurate than prior year data. Based on their findings, as
well as those you have noted, we will make the necessary adjustments to the Agency
Data Quality Plan to ensure continued improvement in FPDS data quality. Additionally,
LS3 will conduct semi-annual data quality reviews to ensure on-going compliance with
applicable guidance and the accuracy and completeness of the data.

Recommendation # 3 - Ensure that OBO contracting personnel are held accountable
for the accuracy of FPDS data.

As noted above, we are committed to improving the quality ofSBA's FPDS acquisition
data and agree that contracting personnel should be held accountable for ensuring its
accuracy and completeness. For this reason, the annual Performance Business
Commitment Plan for each contracting specialist/officer will include a critical
performance element setting forth this requirement.

Thank you again for your review.
